GR-90-98-040
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE COUNTY OF RIVERSIDE SHERIFF'S DEPARTMENT
CALIFORNIA
GR-90-98-040
 
September 1998
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of three
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the County of Riverside Sheriff's Department (RCSD),
California. The RCSD received a grant of $2,530,164 to redeploy 36 sworn officers into
community policing under the Making Officer Redeployment Effective program for 1995 (MORE
95), $6,450,000 to redeploy 86 sworn officers to community policing under the Universal
Hiring Program (UHP), and $181,098 to redeploy 7.3 sworn officer full-time equivalents
into community policing for 1997 under MORE 96. The purpose of the additional officers
under each of the grant programs is to enhance community policing efforts. 
In brief, the most significant audit findings were:

- The RCSD charged unallowable costs totaling $336,749 to the MORE 95 grant and
  $758,181 to the UHP grant. These unallowable costs were for the salaries and benefits of
  non-sworn civilian correctional deputies (CCDs) for 24 additional weeks of supervised
  facility and field training before sworn deputy sheriffs were assigned to community
  policing. The unallowable training costs were in addition to the six weeks of CCDs'
  classroom training that we allowed at a total cost of $362,047.

#####